<html>
<title> - KEEPING COLLEGE WITHIN REACH: SHARING BEST PRACTICES FOR SERVICING LOW INCOME AND FIRST GENERATION STUDENTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                     KEEPING COLLEGE WITHIN REACH:
                       SHARING BEST PRACTICES FOR
                     SERVICING LOW	INCOME AND FIRST
                          GENERATION STUDENTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HIGHER EDUCATION
                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, JANUARY 28, 2014

                               __________


                           Serial No. 113-42

                               __________

  Printed for the use of the Committee on Education and the Workforce


      Available via the World Wide Web:www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
                                  ____ 
            Committee address: http://edworkforce.house.gov
            
            
            
                      U.S. GOVERNMENT PUBLISHING OFFICE
  86-370 PDF                  WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 Frederica S. Wilson, Florida
Joseph J. Heck, Nevada               Suzanne Bonamici, Oregon
Richard Hudson, North Carolina       Mark Pocan, Wisconsin
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

Thomas E. Petri, Wisconsin           Ruben Hinojosa, Texas
Howard P. ``Buck'' McKeon,             Ranking Minority Member
    California                       John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Timothy H. Bishop, New York
Tim Walberg, Michigan                Suzanne Bonamici, Oregon
Matt Salmon, Arizona                 Carolyn McCarthy, New York
Brett Guthrie, Kentucky              Rush Holt, New Jersey
Lou Barletta, Pennsylvania           Susan A. Davis, California
Joseph J. Heck, Nevada               David Loebsack, Iowa
Susan W. Brooks, Indiana             Frederica S. Wilson, Florida
Richard Hudson, North Carolina
Luke Messer, Indiana

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on January 28, 2014.................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     3
    Hinojosa, Hon. Ruben, Ranking Minority Member, Subcommittee 
      on Higher Education and Workforce Training.................     9
        Prepared statement of....................................    25

Statement of Witnesses:
    Anderson, James, A., Dr., Chancellor, Fayetteville State 
      University, North Carolina.................................    27
        Prepared statement of....................................    29
    Del Balzo, Mary, B., Senior Executive Vice President and 
      Chief Operating Officer, The College of Westchester, White 
      Plains, New York...........................................    41
        Prepared statement of....................................    43
    Garrido, Josse, A., graduate student, University of Texas-Pan 
      American, Edinburg, Texas..................................    50
        Prepared statement of....................................    52
    Holtschneider, Dennis H., Rev., President, Depaul University, 
      Chicago, Illinois..........................................    54
        Prepared statement of....................................    56

Additional Submissions:
    Chairwoman Foxx:
        5000 Role Models is 20 years old, still stepping.........     5
        Prepared statement of Ron Haskins........................    80
    Mr. Hinojosa:
        The National HEP CAMP Association........................    11
        The Mexican American Legal Defense and Educational Fund 
          MALDEF.................................................    17
    Hon Jared Polis, a Representative in Congress from the State 
      of from the state of Colorado:
        Prepared statement of....................................    91


                     KEEPING COLLEGE WITHIN REACH:



             SHARING BEST PRACTICES FOR SERVING LOW-INCOME



                     AND FIRST GENERATION STUDENTS

                              ----------                              


                       Tuesday, January 28, 2014

                       House of Representatives,

                  Subcommittee on Higher Education and

                          Workforce Training,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Foxx, Petri, Thompson, Walberg, 
Salmon, Brooks, Messer, Hinojosa, Tierney, Bishop, Bonamici, 
Davis, and Wilson.
    Also present: Representatives Kline and Miller.
    Staff present: Janelle Belland, Coalitions and Member 
Services Coordinator; James Bergeron, Director of Education and 
Human Services Policy; Amy Raaf Jones, Deputy Director of 
Education and Human Services Policy; Nancy Locke, Chief Clerk; 
Brian Melnyk, Professional Staff Member; Daniel Murner, Press 
Assistant; Krisann Pearce, General Counsel; Nicole Sizemore, 
Deputy Press Secretary; Emily Slack, Professional Staff Member; 
Alissa Strawcutter, Deputy Clerk; Tylease Alli, Minority Clerk/
Intern and Fellow Coordinator; Jody Calemine, Minority Staff 
Director; Eamonn Collins, Minority Fellow, Education; Eunice 
Ikene, Minority Staff Assistant; Brian Levin, Minority Deputy 
Press Secretary/New Media Coordinator; Megan O'Reilly, Minority 
General Counsel; Rich Williams, Minority Education Policy 
Advisor; and Michael Zola, Minority Deputy Staff Director.
    Chairwoman Foxx. Good morning. A quorum being present, the 
subcommittee will come to order. Tim Bishop asked if I am 
responsible for the cold in here, and I am really not. In the 
country we would say, ``This is cold enough to hang meat,'' so 
I don't know--that means it is cold.
    Welcome. I thank our witnesses for joining us today to 
discuss ways postsecondary institutions are working better to 
serve low-income and first-generation students. This is the 
12th hearing the committee has held examining a wide range of 
issues facing the higher education community.
    From simplifying federal student aid programs to increasing 
transparency, each hearing has provided a forum to discuss ways 
we can strengthen the nation's postsecondary education system 
to meet the evolving needs of students and the workforce.
    One of the committee's top priorities for the upcoming 
reauthorization of the Higher Education Act is improving 
postsecondary access and affordability. To achieve that goal, 
we must take steps to close the education achievement gap and 
to increase postsecondary opportunity for low-income and first-
generation students.
    Children from disadvantaged families often struggle to 
access important mentoring, tutoring, and other hands-on 
services designed to help encourage high school completion and 
the pursuit of postsecondary education.
    Sadly, these students are often unprepared for college 
academics and require remedial courses that add to the 
challenges of completing a program.
    Too many disadvantaged students simply give up on even 
applying to college because they are confused by the 
application process, overwhelmed by the cost, or unaware of the 
available financial aid options despite our best efforts to 
ensure the information is available and understandable.
    Recognizing these challenges, the federal government has 
created several programs to help disadvantaged students access 
the support necessary to realize the dream of a college degree.
    For example, college preparation and retention programs 
such as TRIO, Upward Bound, Talent Search, and Student Support 
Services provide a pipeline of support services that encourage 
low-income students to graduate high school and earn a 
postsecondary degree.
    Additionally, the GEAR UP program helps the middle and high 
schools with high numbers of at-risk students offer academic 
support, mentoring, career counseling, college visits, and 
other services designed to better prepare students for success 
in postsecondary education.
    Taxpayers dedicate nearly 1 billion each year to support 
the TRIO and GEAR UP programs, but despite the expenditures of 
significant federal resources in these important initiatives, 
more must be done at the state and institutional level to 
prepare disadvantaged students effectively for college and the 
workforce.
    Additionally, it is important that we examine the current 
programs to ensure they are working as intended and meeting the 
goal of helping students make the best choices.
    Fortunately postsecondary institutions are already rising 
to the challenge. In my home state of North Carolina, for 
example, Fayetteville State University is pursuing strategies 
to assess students' skill levels before they begin attending 
classes and use academic analytics to track students' progress 
throughout their curriculum.
    In New York, the College of Westchester provides students 
with a variety of support services such as success coaches to 
mentor freshmen and predictive tool kits that allow students to 
prepare for academic shortfalls and track their progress.
    Chicago's DePaul University has taken steps to coordinate 
with local high schools to ensure students are on the right 
track for college while also offering remedial education 
services.
    We have with us today representatives from each of these 
institutions who can share more information about the ways they 
are working to help disadvantaged students realize the dream of 
a college degree, and we look forward to their testimony.
    We want all Americans to have the opportunity to earn a 
postsecondary credential if they choose to do so. At this 
hearing today, we will discuss additional steps which can be 
taken at the institutional, state, and federal levels to 
improve college access and completion for all seeking 
postsecondary education.
    A number of this subcommittee's members have hands-on 
experience in higher education and mentoring programs. Recently 
I met with Representative Frederica Wilson about the 5,000 Role 
Models of Excellence Projects she started during her tenure as 
a high school principal in Miami.
    I was pleased to learn about this program that pairs 
disadvantaged high school students with mentors to encourage 
them to graduate and pursue further education. Members have 
received a short synopsis of this program in their folders, and 
I encourage all to speak to Representative Wilson about her 
efforts.
    I ask unanimous consent to submit this summary to the 
official hearing record.
    [The statement of Chairwoman Foxx follows:]

 Prepared Statement of Hon. Virginia Foxx, Chairwoman, Subcommittee on 
                Higher Education and Workforce Training

    Good morning and welcome. I thank our witnesses for joining us 
today to discuss ways postsecondary institutions are working better to 
serve low-income and first generation students.
    This is the 12th hearing the committee has held examining a wide 
range of issues facing the higher education community. From simplifying 
federal student aid programs to increasing transparency, each hearing 
has provided a forum to discuss ways we can strengthen the nation's 
postsecondary education system to meet the evolving needs of students 
and the workforce.
    One of this committee's top priorities for the upcoming 
reauthorization of the Higher Education Act is improving postsecondary 
access and affordability. To achieve that goal, we must take steps to 
close the education achievement gap and increase postsecondary 
opportunity for low-income and first generation students.
    Children from disadvantaged families often struggle to access 
important mentoring, tutoring, and other hands-on services designed to 
help encourage high school completion and the pursuit of postsecondary 
education. Sadly, these students are often unprepared for college 
academics, and require remedial courses that add to the challenges of 
completing a program. Too many disadvantaged students simply give up on 
even applying to college because they are confused by the application 
process, overwhelmed by the costs, or unaware of the available 
financial aid options, despite our best efforts to ensure the 
information is available and understandable.
    Recognizing these challenges, the federal government has created 
several programs to help disadvantaged students access the support 
necessary to realize the dream of a college degree. For example, 
college preparation and retention programs such as TRIO's Upward Bound, 
Talent Search, and Student Support Services provide a pipeline of 
support services that encourage low-income students to graduate high 
school and earn a postsecondary degree.
    Additionally, the GEAR UP program helps middle and high schools 
with high numbers of at-risk students offer academic support, 
mentoring, career counseling, college visits, and other services 
designed to better prepare students for success in postsecondary 
education.
    Taxpayers dedicate nearly 1 billion each year to support the TRIO 
and GEAR UP programs. But despite the expenditure of significant 
federal resources in these important initiatives, more must be done at 
the state and institutional level to prepare disadvantaged students 
effectively for college and the workforce. Additionally, it is 
important that we examine the current programs to ensure they are 
working as intended and meeting the goal of helping students make the 
best choices.
    Fortunately, postsecondary institutions are already rising to the 
challenge. In my home state of North Carolina, for example, 
Fayetteville State University is pursuing strategies to assess 
students' skill levels before they begin attending classes and use 
academic analytics to track students' progress throughout their 
curriculum.
    In New York, the College of Westchester provides students with a 
variety of support services, such as success coaches to mentor freshman 
and predictive toolkits that allow students to prepare for academic 
shortfalls and track their progress. Chicago's DePaul University has 
taken steps to coordinate with local high schools to ensure students 
are on the right track for college, while also offering remedial 
education services. We have with us today representatives from each of 
these institutions who can share more information about the ways they 
are working to help disadvantaged students realize the dream of a 
college degree, and we look forward to their testimony.
    We want all Americans to have the opportunity to earn a 
postsecondary credential, if they choose to do so. At this hearing 
today we'll discuss additional steps which can be taken at the 
institutional, state, and federal levels to improve college access and 
completion for all seeking postsecondary education. A number of this 
subcommittee's members have hands-on experience in higher education and 
mentoring programs. Recently, I met with Rep. Frederica Wilson about 
the 5000 Role Models of Excellence Project she started during her 
tenure as a high school principal in Miami. I was pleased to learn 
about this program that pairs disadvantaged high school students with 
mentors to encourage them to graduate and pursue further education. 
Members have received a short synopsis of this program in their folders 
and I encourage them to speak to Rep. Wilson about her efforts.
    I ask unanimous consent to submit this summary to the official 
hearing record.
    I look forward to continuing to work with my colleagues on both 
sides of the aisle as we begin work on the reauthorization of the 
Higher Education Act. With that, I yield to my colleague, Mr. Ruben 
Hinojosa, the senior Democrat member of the subcommittee, for his 
opening remarks.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                ______
                                 
    Chairwoman Foxx. I look forward to continued work with my 
colleagues on both sides of the aisle as we begin work on the 
reauthorization of the Higher Ed Act.
    With that, I yield to my colleague, Mr. Ruben Hinojosa, the 
senior democrat member of the subcommittee, for his opening 
remarks.
    Mr. Hinojosa. Thank you, Chairwoman Foxx.
    Today's hearing will focus on how our nation can best 
eliminate barriers to college access for low-income and first-
generation college students; students who strive to achieve the 
American dream, contribute to the nation's prosperity, and work 
to improve lives of others.
    In just a few minutes you will hear from Alex Garrido, an 
exceptional young man from my congressional district who is a 
low-income, first-generation student earning a Master's degree 
in information technology at the University of Texas, Pan-
American, a Hispanic-serving institution in the Rio Grande 
Valley of South Texas.
    Importantly, Alex is also an immigrant who was able to 
afford the cost of a college degree due to the passage of the 
Texas Dream Act in 2001. To be sure, without the Texas Dream 
Act, college would have been clearly out of reach for this 
exemplary individual.
    Each year approximately 65,000 undocumented students 
graduate from high school but cannot go to college. 
Unfortunately, only 5 to 10 percent of undocumented high school 
graduates go to college because most are not eligible for in-
state tuition.
    As a native Texan, I am especially pleased that more than a 
decade ago Texas became the first state in the nation to pass 
an in-state tuition law which made college more affordable for 
immigrant students.
    Today, 16 states have tuition equity laws allowing 
undocumented students to pay in-state tuition at public 
colleges and universities and some boards and regions have 
adopted policies that allow undocumented students to access in-
state tuition.
    Furthermore, a handful of states allow undocumented 
students to access state financial aid. While I applaud these 
states for taking bold steps to support immigrant students, 
Congress must act now and provide much-needed relief to our 
nation's dreamers through the passage of commonsense 
immigration reform.
    In fact, a 2010 UCLA study estimated that the total 
earnings of Dream Act beneficiaries would be between $1.4 
trillion and $3.6 trillion, and almost 1.8 million individuals 
in the United States would benefit from the Federal Dream Act.
    Preparing all students for good family-sustaining jobs and 
careers and a bright future must be a guiding principle for HEA 
reauthorization, which is badly needed here in Congress.
    A highly skilled at 21--or rather, a highly skilled 21st 
century workforce is key to strengthening our nation's economy 
and reducing income inequality and poverty particularly among 
our most vulnerable student populations.
    More to the point, the Georgetown center on Washington--
rather, the Georgetown Center on Education and the Workforce 
found that 63 percent of all jobs will require workers with at 
least some postsecondary education by the year 2018.
    Along the same lines, a study by the College Board revealed 
that over the course of their working lives the average college 
graduate earns in excess of 60 percent more than a high school 
graduate.
    Finally, federal investments and Pell grants, GEAR UP, HEP 
CAMP, TRIO programs, historically black colleges and 
universities, tribal colleges and universities, and minority-
serving institutions are transforming the lives of millions of 
disadvantaged students by making college more affordable and by 
providing students with the academic support and services they 
need to succeed in school.
    More than ever, Congress, states, and institutions must 
build on the successes of these Federal programs and do more to 
encourage greater numbers of low-income, first-generation 
college students to pursue a college degree.
    For these reasons, I ask my colleagues from both sides of 
the aisle to work together to make a college education 
accessible and affordable to our nation's dreamers and to 
greater numbers of low-income, first-generation college 
students in this reauthorization of Higher Education Act.
    At this time, I ask for unanimous consent to enter the 
letters from the national HEP CAMP association as well as from 
the Mexican-American Legal Defense and the Educational Fund 
into the hearing record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Chairwoman Foxx. Without objection.
    Mr. Hinojosa. With that, I yield back.

 Prepared Statement of Hon. Ruben Hinojosa, Ranking Miniority Member, 
        Subcommittee on Higher Education and Workforce Training

    Thank you, Chairwoman Foxx.
    Today's hearing will focus on how our nation can best eliminate 
barriers to college access for low-income and first generation college 
students--students who strive to achieve the American Dream, contribute 
to the nation's prosperity, and work to improve the lives of others.
    In just a few minutes, you will hear from Alex Garrido, an 
exceptional young man from my congressional district who is a low- 
income, first generation student, earning a master's degree in 
information technology at the University of Texas-Pan American (UTPA), 
a Hispanic Serving Institution in the Rio Grande Valley of South Texas.
    Importantly, Alex is also an immigrant who was able to afford the 
cost of a college degree due to the passage of the Texas DREAM Act in 
2001. To be sure, without the Texas DREAM Act, college would have been 
clearly out of reach for this exemplary individual.
    Each year approximately 65,000 undocumented students graduate from 
high school but cannot go to college. Unfortunately, only 5 to 10 
percent of undocumented high school graduates go to college because 
most are not eligible for in-state tuition.
    As a Native Texan, I am especially pleased that more than a decade 
ago, Texas became the first state in the nation to pass an in-state 
tuition law, which made college more affordable for immigrant students.
    Today, 16 states have tuition equity laws allowing undocumented 
students to pay in-state tuition at public colleges and universities, 
and some boards of regents have adopted policies that allow 
undocumented students to access in-state tuition.
    In addition, a handful of states allow undocumented students to 
access state financial aid.
    While I applaud these states for taking bold steps to support 
immigrant students, Congress must act now and provide much needed 
relief to our nation's dreamers through the passage of common-sense 
immigration reform. In fact, a 2010 UCLA study estimated that the total 
earnings of DREAM Act beneficiaries would be between $1.4 and $3.6 
trillion, and almost 1.8 million individuals in the United States would 
benefit from the federal DREAM Act.
    Preparing all students for good family sustaining jobs and careers 
and a bright future must be a guiding principle for HEA 
reauthorization.
    A highly skilled 21st century workforce is key to strengthening our 
nation's economy and to reducing income inequality and poverty, 
particulary among our most vulnerable student populations.
    More to the point, the Georgetown Center on Education and the 
Workforce found that 63 percent of all jobs will require workers with 
at least some postsecondary education by 2018.
    Along the same lines, a study by the College Board revealed that 
over the course of their working lives, the average college graduate 
earns in excess of 60 percent more than a high school graduate.
    Finally, federal investments in Pell Grants, GEAR-UP, HEP-CAMP, 
TRIO programs, Historically Black Colleges and Universities, Tribal 
Colleges and Universities and Minority Serving Institutions are 
transforming the lives of millions of disadvantaged students by making 
college more affordable and by providing students with the academic 
support and services they need to succeed in school.
    More than ever, Congress, states and institutions must build on the 
successes of these federal programs and do more to encourage greater 
numbers of low-income, first generation college students to pursue a 
college degree.
    For these reasons, I ask my colleagues from both sides of the aisle 
to work together to make a college education accessible and affordable 
to our nation's dreamers and to greater numbers of low income, first 
generation college students, in this reauthorization of the Higher 
Education Act.
    At this time, I ask for unanimous consent to enter letters from the 
National HEP-CAMP Association and the Mexican American Legal Defense 
and Educational Fund into the hearing record.
    With that, I yield back.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Mr. Hinojosa.
    Pursuant to Committee Rule 7-C, all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record.
    Without objection, the hearing record will remain open for 
14 days to allow statements, questions for the record, and 
other extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses.
    Dr. James Anderson serves as chancellor and professor of 
psychology at Fayetteville State University, North Carolina's 
second oldest public institution.
    Mrs. Mary Beth Del Balzo serves as the senior executive 
vice president and chief operating officer at the College of 
Westchester.
    I believe Mr. Hinojosa would like to introduce Mr. Garrido.
    Mr. Hinojosa. Thank you, Chairwoman.
    Alex Garrido is an impressive young man with a long list of 
accomplishments. Like many low-income, first-generation 
students, Alex is hard-working, entrepreneurial, and determined 
to succeed and, most importantly, to contribute to this nation.
    Alex graduated with honors from his high school and the 
University of Texas, Pan-American with a bachelor of science in 
psychology, and today he is pursuing a Master's degree in 
information technology at UTPA.
    Alex is also an entrepreneur. After earning his degree and 
working for one of the best Web site design firms in Houston, 
Alex started his own web design firm and now has over 90 
clients.
    Due to his unique talents, he was recruited away by UTPA to 
assist with their online and international marketing efforts. 
Alex is also working on an application involving Google Glass.
    Alex knows America as his home and is a proud beneficiary 
of President Obama's Deferred Action for Childhood Arrivals 
known as DACA.
    I would like to note that without the leadership of 
Governor Perry and the passage of the Texas Dream Act, Alex 
would not have been able to afford the cost of a college 
education.
    As ranking member of this committee, it is a pleasure for 
me to extend a warm welcome to this outstanding young man.
    Chairwoman Foxx.. Thank you, Mr. Hinojosa.
    Father Dennis Holtschneider serves as president of DePaul 
University, the nation's largest Catholic university and the 
largest private university in the Midwest.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system.
    You will have five minutes to present your testimony. When 
you begin, the light in front of you will turn green. When one 
minute is left, the light will turn yellow. When your time has 
expired, the light will turn red. At that point, I ask that you 
wrap up your remarks as best as you are able.
    After you have testified, members will each have five 
minutes to ask questions of the panel members.
    I now recognize Dr. James Anderson for five minutes.

STATEMENT OF DR. JAMES ANDERSON, CHANCELLOR, FAYETTEVILLE STATE 
            UNIVERSITY, FAYETTEVILLE, NORTH CAROLINA

    Mr. Anderson. Madam Chair, Ranking Member Hinojosa, and 
distinguished members of the panel, on behalf of the students, 
staff, and faculty at Fayetteville State University in North 
Carolina, thank you for this opportunity.
    We are a constituent institution of the University of North 
Carolina system. We are approximately 66 percent African-
American, 27 percent white, 5 percent Hispanic, 75 percent Pell 
eligible, 20 percent military affiliated, which is the highest 
in the system.
    Half of our students are adult learners and 95 percent of 
our students are in-state, mostly from rural regions, so we are 
one of the most diverse historically black institutions.
    I came on board in 2008, and at that point we needed to 
make the leadership and financial commitment to creating the 
kinds of support programs and faculty development programs that 
would move our students forward successfully.
    I would like to mention two of our support programs for 
underrepresented students, especially since they won an award 
in December at the Press Club for high-impact practices.
    The first of those programs is called the CHEER program, 
and CHEER stands for Creating Higher Expectations for 
Educational Readiness.
    Many of our applicants, because of their standardized test 
scores, are not eligible to enroll in Fayetteville State 
University, and so the CHEER program represents a summer bridge 
program during which students take two courses of math and an 
English course, both of which are the traditional courses you 
would take in your freshman year.
    They are not remedial courses. They also receive 
counseling, advising, et cetera in the summer. If they pass 
those two courses, than the students are allowed to enroll in 
Fayetteville State University.
    Tracking CHEER students over the last several years shows 
that they are retained at a higher rate than the general 
student population that was already admitted and they have 11 
percent higher graduation rate.
    The second program for which we won that award in--by the 
way only four schools received the HIP, High Impact Practice 
awards.
    The second program focuses on underrepresented males. 
Nationally underrepresented males, especially minority males, 
have some of the poorest success rates. We wanted to make sure 
that did not happen to students who enter in that category and 
so one of the programs that we created really focused on 
bringing those students in, operating in a learning community, 
receiving strong mentoring and peer advising.
    One program was created for freshman, and there is a second 
program that carries them from sophomore through senior year. 
The students in those programs are highly successful. If we 
compare them to other males who entered who did not go through 
these programs, our students are retained at an 84 percent rate 
versus students who were not in that program who are retained 
at a 66 percent rate.
    The students--when you hear their testimonies--are probably 
as powerful as Alex's because they came in, they know they are 
under-skilled, they performed poorly in their first year, and 
then ultimately they recognized that they have to do much 
better.
    We also have made a major investment in financial aid 
counseling. Financial aid counseling should begin as early as 
possible, so our First Steps program begins in the spring and 
the summer before students enroll. Students and their parents 
come to the university and, besides doing the placement testing 
and the advisement and registration, the rigorous financial aid 
counseling has been very successful.
    For example, Fayetteville State University was one of the 
few HBCUs that was not affected by the Parent Plus Loan 
program, as many other institutions were in North Carolina who 
saw a drop in enrollment when the criteria were changed. We 
were not because we actually counsel our students and parents 
not to--especially the parents--not to take on the debt burden 
when their students are taking on a debt burden also. We try to 
find other means to support students rather than do that.
    We have, as you know, a strong military population because 
of the presence of Fort Bragg and the military children of 
those veterans and active military are very important to our 
enrollment.
    We have two early college high schools or traditional early 
college and an international early college high school, and 
increasingly we are seeing more of the children of the military 
enter these early college high schools.
    Our top graduates now come from early college high schools. 
It is a major investment financially; however, it is probably 
the best group of students that we bring from a high school 
pipeline into the university and ultimately who graduate.
    By the way, our early college high schools and all of them 
in North Carolina focus on minority and underrepresented 
students, so roughly 80 percent of our students come from those 
categories, and I strongly recommend that.
    Well--wow, that is fast.
    Let me close by saying in terms of Title III, I think we 
really need to look at the areas of Title III that can 
strengthen HBCUs and many of the other underrepresented 
institutions.
    [The statement of Dr. Anderson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
 
    
    Chairwoman Foxx.. Thank you very much, Dr. Anderson.
    Ms. Del Balzo?

 STATEMENT OF MRS. MARY BETH DEL BALZO, SENIOR EXECUTIVE VICE 
     PRESIDENT AND CHIEF OPERATING OFFICER, THE COLLEGE OF 
              WESTCHESTER, WHITE PLAINS, NEW YORK

    Mrs. Del Balzo. Chairwoman Foxx, Ranking Member Hinojosa, 
and distinguished members of the committee, I would like to 
thank you for the opportunity to speak with you today about the 
College of Westchester.
    I am honored to represent CW because I am particularly 
proud of how we serve our students and our community. CW 
celebrates its 100th anniversary in 2015. We are a privately-
owned, single-campus college in White Plains, New York with a 
steady enrollment of about 1,000 students.
    Curriculum includes campus-based and fully-online courses 
in business, allied health, digital media, and technology--
associate and baccalaureate degrees.
    We maintain vibrant relationships with the local and 
regional corporate community. A professional network of over 
300 businesses regularly hire our grads.
    We sit on boards of local businesses, community, and 
education associations. The New York State Board of Regents and 
the Middle States Commission on Higher Education oversee our 
excellence.
    The College of Westchester is a proprietary college. We pay 
local property taxes and corporate income taxes in the state of 
New York and federally. Our graduates secure good jobs and 
become contributing taxpayers.
    CW serves both traditional students who just graduated from 
high school and nontraditional students, adults who may be 
coming back to college. Most come from families with need; many 
first-generation. Seventy-five percent of our students are Pell 
eligible and the vast majority receive assistance from New York 
State's Tuition Assistance Program known as TAP.
    As you know, Pell and TAP are awarded to students, not 
institutions, and we are honored that they select CW. Our 
students come from our community and continue to reside at 
their homes. CW does not offer dormitories.
    Our traditional students work an average of 10 to 30 hours 
per week, and our nontraditional students work at least full-
time.
    CW does not have an open enrollment policy. We personally 
interview each prospective student, review their transcripts, 
and accept only qualified students who we feel can succeed.
    Here are some methods we employ to help low-income students 
graduate. All incoming students who test into noncredit basics 
of math may participate in a cost-free CW Summer Bridge program 
to help them improve their math skills and retest into higher-
level credit bearing math classes.
    Out of 122 students, 117 were able to successfully do so 
this past summer. Another version of this program is called a 
CW Boot Camp, offered at intervals convenient to working 
people.
    CW's success coaching program assigns each student to a 
success coach who tracks the student's strengths and stressors 
through CW's campus toolkit. This comprehensive evaluation 
identifies students who will benefit from academic, financial, 
or employment counseling necessary for continued resilience.
    CW faculty and staff constantly evaluate students to 
identify those at risk through classwork, student interaction, 
attendance, resilience, and persistence, and refer 
appropriately.
    Adult students may have completed course work or obtained 
experience that should be considered as credits earned. CW's 
prior learning assessment program allows students to enter CW 
with credits from other colleges through standardized exams, 
high school and VOC E articulations for holding technology 
certifications, for military experience through our portfolio 
evaluation of life and career experiences.
    CW students do not study abroad; however, we recently began 
partnering with SUNY's collaborative online international 
learning initiative. Our recent program utilized class 
videoconferencing with students in Panama, and soon we will 
have a future group from Coventry, England.
    CW is working with the NewsActivist, a writing-based 
partnership that provides classes and students with 
opportunities for text-based international collaborations.
    In 2012, CW was selected to partner with Carnegie Mellon 
University and a small group of other colleges across the 
country in Carnegie Mellon's Open Learning Initiative to 
improve the success of college students in certain gateway 
courses. Five faculty and over 100 students participated.
    For 2 years, CW students have been accepted into the 
prestigious University of Pittsburgh's i3 Scholars Program. CW 
has become proactive in reducing textbook costs. Twenty-two 
courses replaced commercial textbooks in 2013.
    In my written comments, I offer several areas I would 
respectfully like the committee to consider during 
deliberations of the reauthorization of the Higher Education 
Act, specifically year-round PELL and accurate data reporting 
and analysis through IPEDs reporting.
    We believe strongly that Congress and the Department of 
Education should judge institutions on the basis of how well 
they serve students and not on other considerations such as 
their tax status.
    As you know, the Department of Education is dictating a new 
regulation called Gainful Employment, which will result in the 
closure of programs that don't meet an arbitrary metric that 
measures student debt versus income.
    If enacted as proposed, the Gainful Employment regulation 
would introduce a complicated regulatory formula that is hard 
to understand and does not accomplish its goals.
    There is a lot of work to be done. Thank you so much for 
this opportunity to testify before you this morning, and I 
welcome any questions you may have.
    [The statement of Mrs. Del Balzo follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    
    Chairwoman Foxx.. Thank you very much.
    Mr. Garrido, you are recognized for five minutes.

    STATEMENT OF MR. JOSSE ALEX GARRIDO, GRADUATE STUDENT, 
       UNIVERSITY OF TEXAS-PAN AMERICAN, EDINBURG, TEXAS

    Mr. Garrido. Chairwoman Foxx, ranking member Hinojosa, and 
members of the subcommittee, I want to thank you very much for 
being here. This is a very exciting moment for me. This is the 
first time I am testifying before you, and I am very nervous, 
but I am very happy.
    My parents brought me here to the United States hoping for 
a better life. Unfortunately, they were basically cheated away 
by a bad immigration attorney and the whole law firm 
disappeared just a few weeks after they gave this immigration 
attorney all the things they had.
    I attended high school here in the United States, and 
thanks to my counselor, my high school counselor, I was able to 
take advantage of several afterschool programs and several 
education tracks. I was able to basically take several advanced 
placement classes, and I was able to enroll in a community 
college just to take some basic credits.
    It was very sad when I realized that I wasn't going to be 
able to go to college. Thanks to my counselor--she told me 
about the Texas law, which thanks to Rick Perry allows students 
without status to basically attend the university paying in-
state tuition.
    Working part-time, working several small odd jobs I was 
able to graduate with honors without a debt, of course. I 
didn't have a Social Security back then, so I was not able to 
get any loans or any kinds of scholarships.
    I started my non-profit back when I was in my undergrad. I 
was very active in the effort to pass the Dream Act back in 
2010. Unfortunately back then it didn't pass. Actually, the day 
it failed in the Senate was the very day of my graduation. It 
failed in the Senate on Monday--it failed in the Senate on 
December 18 and it was in the morning. In the afternoon it was 
my graduation.
    Thanks to the Morton memos and an extraordinary immigration 
attorney, I was able to move to Houston, finish a certification 
in web design, and learn on my own HTML5, CSS3, Ruby, 
Javascript, PHP, and WordPress application development.
    Thanks to that, I started working for one of the best web 
design firms in Houston. After that I started my own company 
with the help of my best friend. Today, my web design firm, 
alexwebmaster.com, has two employees and a manager and a 
portfolio of over 90 clients in plastic surgery, real estate, 
e-commerce, psychology, and many other markets.
    We provide strategic social media marketing and search 
engine optimization along with innovative web design and 
mobile-friendly design. My background caught the attention of 
the UTPA director of continuing education, and she invited me 
to teach digital marketing and web design classes at the 
University of Texas-Pan American.
    Today, I could not be happier. I live with an extraordinary 
woman in a beautiful 5-room house, I proudly pay my taxes, and 
I love my country.
    I am currently working on my masters in information 
technology. I do not manage my own company right now because I 
essentially got recruited away from it because right now I am 
helping the Office of Graduate Studies at the University of 
Texas Pan American with their online and international 
marketing efforts.
    Along with some friends in the MSIT program and the 
computer science program, I am working on an application to 
document your life using Google Glass. Hopefully we can submit 
it to Google and get it approved. I was one of the first people 
to be selected by Google to have this kind of technology.
    I am very fortunate to live in Texas because of the help of 
all the college preparation programs that I was able to take. 
Because of all of the help of my counselor and family members 
and friends and the Texas Dream Act and the leadership from our 
President, and the benefits of attending one of the most 
affordable universities in the United States, I am who I am 
today.
    I think that there is a lot of hidden talent in minority 
and low-income students; all it takes for many of them to shine 
is an opportunity.
    So today I am asking you to please provide us an 
opportunity, increase funding. It is really hard when you are a 
first-generation student to attend college.
    For example, my parents didn't see the value of going to 
college, so I guess--I just want to thank you so much. This is 
a wonderful opportunity, and I guess I yield my time.
    [The statement of Mr. Garrido follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairwoman Foxx.. Thank you very much.
    I now recognize father Dennis Holtschneider for five 
minutes.

 STATEMENT OF REV. DENNIS H. HOLTSCHNEIDER, PRESIDENT, DEPAUL 
                 UNIVERSITY, CHICAGO, ILLINOIS

    Rev Holtschneider. Thank you.
    Chairwoman Foxx, Ranking Member Hinojosa, and distinguished 
members of this subcommittee, thank you for inviting me to 
appear today.
    In respect for our limited time, you will find more detail 
and additional suggestions for reauthorization of the Higher 
Education Act in my written testimony.
    With 25,000 students, DePaul University is the largest 
private university in the Midwest. We serve a broad swath of 
society, but we direct all of our financial aid towards 
undergraduates who are from first-generation families, low-
income qualifying for the Pell Grant, or students of color for 
underrepresented groups.
    They are 53 percent of this year's freshman class, and they 
graduate in impressive numbers. To serve them well we keep our 
class sizes small. We are constantly trying new approaches.
    We recently shifted all of our remedial coursework to the 
summer before college and made it free of charge if the 
students shifted with it, but we charged them if they waited 
until the fall in order to keep them on track with their 
colleagues so they moved toward graduation. That has worked 
beautifully.
    We implemented a mentoring program for men of color, which 
now has a higher graduation rate than the student body at 
large.
    We completely redesigned gateway courses. Those are the 
courses like organic chemistry and calculus where students take 
the course, fail, and they drop out of college. We literally 
redesigned those courses based on what the students told us.
    We added supplemental instruction. We substantially 
upgraded advising, changing how it works. We have now become 
the top private transfer institution in the United States to 
enable students to spend two years before they come to DePaul 
and to be able to have a less expensive education.
    We are also among the top 10 providers in the United States 
for professional internships. All in service of helping them 
succeed not only in college but helping them succeed in life.
    Our focus on educational opportunity also finds expression 
in our TRIO programs. We host two TRIO programs at DePaul, 
Student Support Services and McNair Scholars, and we supplement 
them extensively with our own funds.
    These programs work. Our latest graduation rate for Student 
Support Services students was over 80 percent, 10 percentage 
points above the institutional average, 80 percent of our 
McNair students are going to graduate school within 3 years to 
some of the finest graduate schools in America.
    TRIO programs in our experience have an outsize effect, and 
we know firsthand their value. That said, my colleagues and I 
also believe that TRIO could be improved in the next 
reauthorization cycle.
    First, we ask that TRIO eligibility regulations be 
simplified. Rather than making every university in the country 
independently review the net taxable income for each TRIO 
student or their families of origin, TRIO eligibility should 
simply follow Pell eligibility.
    If a student has already been certified as sufficiently 
poor to be eligible for Pell funding, it would greatly simplify 
the administration of these programs if that designation also 
made them eligible for TRIO programs.
    That would allow us to apply the TRIO funds to student 
support rather than cause us to assign lengthy staff hours 
toward needless administrative work.
    Second, while TRIO program regulations technically permit 
collaboration between TRIO programs and other educational 
opportunity programs inside our institutions, it is our 
experience at least with respect to student support services 
that the regulation prohibiting comingling of funds discourages 
institutions from any significant collaboration internally.
    Moreover, extensive reporting requirements deter 
institutions from creating programs that would serve larger 
numbers of students. There is simply so much paperwork in the 
reporting requirements that universities have created 
standalone programs that serve small, discrete numbers of 
students and they can be more easily reported according to the 
requirements.
    Third, there appears to be little incentive for TRIO 
programs to collaborate their activities across institutions. 
There are 50 or so TRIO programs in the Chicago region alone, 
community agencies, colleges, schools . . . I have no doubt 
they are doing good work individually, but working together, 
Chicago universities could partner more easily with high school 
Upward Bound and Talent Search programs offering students real 
pathway programs that ease their transition to college.
    Just as importantly, we could create ways to assess the 
collective impact of TRIO. For now, however, we work 
independently. That is a shame. All that said, TRIO works 
beautifully at DePaul. I pray it remains at the heart of our 
national commitments to every student, and I thank you for your 
time.
    [The statement of Rev. Holtschneider follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    
    Chairwoman Foxx. Thank you very much.
    I would now like to recognize our members for five minutes 
of questioning.
    Mrs. Brooks, I recognize you as our first member.
    Mrs. Brooks. Thank you, Madam Chairwoman.
    Hello to the panel. Thank you so very much for being here. 
I actually, before coming to Congress, was a part of our 
state's community college system and Ivy Tech Community College 
in Indiana.
    Just last week when we were home, I convened a higher ed 
listening session of a huge number of institutions within our 
state. We had quite a discussion about higher ed 
reauthorization.
    An overarching theme that I heard from the administrators, 
including college presidents who attended, was that we need to 
have much more focus on the success of the students once they 
enroll.
    It was their belief that there has been a huge amount of 
progress in access, but yet once they get to the doors of the 
institution there are all of these impediments, and we have not 
had a very high success rate in this country on graduation and 
on completion.
    And so I just thank you all particularly for highlighting 
the programs that have been so effective in your institutions.
    Actually, Dr. Anderson, you brought up something that came 
up in my discussion last week and if you could talk a little 
bit more about the problem in this country, because we now have 
about 57 percent of all people going to college are females, 
which is a fabulous thing, but we are not focusing enough on 
the male students.
    Could you just talk a little bit more about the issue of 
males continuing on in college and their success?
    I would like to also ask you a bit about TRIO, Reverend 
Holtschneider, in a moment.
    If you could talk about your program, Dr. Anderson, with 
respect to the focus, the under-representation of males on our 
college campuses.
    Mr. Anderson. Sure. In identifying that group as a targeted 
population, we recognized that there had to be a significant 
commitment to both access and success for that group.
    All of the data nationally indicates that, and there are 
many good programs. As you heard, DePaul has one, and we have 
one also.
    The students have to learn to understand the culture of 
college when they first get there. Many are under-skilled, and 
so you have to put them into courses where faculty understand 
the level of readiness that they have and often that means that 
you have to train faculty and have a faculty development 
component to deal with these students.
    You must make sure that your best tutors, your best 
advisors, your best mentors are associated with the program, 
and by the way, they don't have to be males. Some of the most 
significant advisors and mentors on our campus are females; 
staff, faculty, and upper-class students.
    The students themselves have to be held to very high 
standards, and so the progression standards that we have 
created as a university as students move from semester to 
semester apply to them because if you don't hold them to high 
academic standards, they won't aspire to those standards.
    You must have a good assessment component to make sure that 
you can track how well these students are doing and where you 
draw the students from. I mentioned early college high schools, 
for example. Some of our students come from early college high 
schools.
    Some students come from the CHEER program. So they enter 
the university already having come from a pipeline that is very 
strong, and if you can have that strong pipeline--we have a 
very strong GEAR UP program, for example.
    Our GEAR UP program is one of the most successful in the 
country and sending students to the university as under-
represented males but coming from a strong pipeline strengthens 
their chance of successes as opposed to just coming in as 
entering freshmen and having to start anew.
    Mrs. Brooks. Have you found that all of the different 
funding streams that are available cause the incredible amount 
of compliance work that we have heard about, and can you 
address that with respect to this population of students?
    Mr. Anderson. Sure. One of the hindrances has been the fact 
that when the reauthorization occurred in 2008, the 
institutions that got the designation of being PBI, 
Predominantly Black Institutions and who were not historically 
black institutions, they have been afforded the chance to use 
Title III funds for certain things that we can't, and many of 
the things that we would like to use Title III funds for would 
benefit this population.
    So one of our requests representing all HBCUs is that we go 
back and look at that 2008 reauthorization. You have, for 
example, PBIs that used to be historically black institutions, 
now are predominately white but may have a significant number 
of African-American or Hispanic students.
    They are allowed to utilize Title III in ways that 
historically black institutions can't, so we can do more with 
our minority males in our under-represented male program if we 
were allowed, for example, to utilize some of those funds.
    Mrs. Brooks. Thank you.
    And I have a very short period of time, but Reverend 
Holtschneider--yes, I am sorry. My time is up.
    I yield back.
    Mr. Anderson. I am sorry.
    Chairwoman Foxx.. You can always speak to Father 
Holtschneider and get something from him after the hearing.
    Mrs. Brooks. Thank you.
    Chairwoman Foxx.. Thank you.
    Mr. Hinojosa, I recognize you for five minutes.
    Mr. Hinojosa. Thank you.
    It is wonderful to have such great panelists here on this 
subject that is so important to us here in Congress and help us 
prepare for reauthorization of Higher Education Act.
    I will start my first question for Alex Garrido.
    Briefly, could you describe your experience as a first-
generation college student within your family and in college?
    Mr. Garrido. Well, basically it was very hard, very hard 
because my parents didn't recognize the value of attending 
college, and I couldn't have done it without the help of my 
school counselor, and she guided me through all of these 
programs through the GEAR UP program, through personal 
coaching, through personal guidance. I think it was essential 
that I got that help from her.
    Mr. Hinojosa. What did GEAR UP teach you that made you 
college ready?
    Mr. Garrido. It inspired me to go to college. It opened a 
window of opportunity. It just made me dream of a better life.
    Mr. Hinojosa. Thank you. Briefly how did Texas Dream Act 
make it possible for you to attend college?
    Mr. Garrido. I couldn't have gone to college without the 
Texas Dream Act. Back then I didn't have status, and for 
undocumented students, usually they have to pay as 
international students, which the tuition rate is usually as 
you may know sometimes twice or three times higher than regular 
tuition. So the Texas Dream Act allowed me to pay in-state 
tuition, and Rick Perry is my hero for passing the Texas Dream 
Act.
    Mr. Hinojosa. Could you talk about your job perspectives 
coming out of graduate school and the financial impact that the 
Dream Act has had on your life?
    Mr. Garrido. Basically because I have such a large 
portfolio, and I work for so many different companies, I get 
job offers I think at least twice per week. Vice presidents 
from companies, IT companies in Houston, in Dallas, they are 
constantly calling me and they are constantly trying to recruit 
me, but my main goal is to finish my Masters in Information 
Technology and hopefully work for a large corporation such as 
Google or Microsoft.
    Mr. Hinojosa. A 2010 UCLA study that we saw estimated that 
the total earnings of all Dream Act beneficiaries would be 
between $1.4 trillion and $3.6 trillion. Do you agree with 
that, and how many students are there at your university who 
would fall into this group?
    Mr. Garrido. Back in 2010, we had 603 students. I don't 
know the specific number right now at my university, but yes. 
We are used to dealing with hardships. We are used to dealing 
with difficult circumstances. We are used to having to overcome 
a lot of obstacles.
    We know we are not entitled to anything, and we risk it. We 
go and take chances because we already have nothing, so 
anything that we can get, anything that we can do, we do it. 
Dreamers usually have an entrepreneurial spirit. I started my 
own non-profit even back when I didn't have a status, so I 
think that shows what we can do in terms of contributing to 
this country.
    Mr. Hinojosa. Thank you.
    Dr. Anderson, I agree with my colleague from Indiana, Susan 
Brooks, in the need to address the falling percentage of males 
going to the University. I think that today 60 percent of all 
of the students attending universities are female.
    How did GEAR UP and TRIO help you move those numbers up and 
graduation rate as was pointed out?
    Mr. Anderson. Well, one of the things that we, when we talk 
to GEAR UP, we talk to them about really defining their outcome 
so that they were measurable. Some of the TRIO programs, while 
they serve a great mission, aren't as focused on measurable 
outcomes. We wanted to be able to say that the impact of GEAR 
UP is X or Y or Z.
    So as we talked to the leaders of the GEAR UP program, we 
made sure that they aligned their outcomes with the 
university's outcomes and expectations. Therefore, it was a 
seamless transition for the students because they were in a 
program where all of the activities were built around things 
that were measurable, good metrics.
    In fact, the assessment plan for our GEAR UP program is 
often held up to other GEAR UP programs when they apply, and 
they are told to look at our assessment model.
    Mr. Hinojosa. Did you include the importance of financial 
literacy at the GEAR UP programs so that they could make good 
choices and good decisions as to how they were going to get 
financing?
    Mr. Anderson. Absolutely. And not just in GEAR UP but all 
of the TRIO programs you will find that one of the significant 
weaknesses is the students and the parents understanding of 
what the debt to go to college really entails, so financial 
literacy training and all related training is important, is 
critical.
    Mr. Hinojosa. Thank you.
    I yield back.
    Chairwoman Foxx.. Thank you, Mr. Hinojosa.
    Mr. Walberg, you are recognized for five minutes.
    Mr. Walberg. I thank the chairwoman.
    I thank the panel for being here today.
    Ms. Del Balzo, I know from my background, having been in my 
field of endeavor for a number of years and then going back to 
Wheaton College Graduate School, the experience that I had was 
taken into consideration by Wheaton at the time and allowed me 
as a husband and a father of two at that time to have some 
efficiency built into my graduate school studies and be given 
credit for experience.
    At Westchester, how do you account for the experience of a 
person who comes not necessarily in a graduate study but coming 
to a bachelor's degree program from a field of endeavor for 
some time, experience in what they are doing, and now coming 
back for some training to allow them to progress further?
    What does the College of Westchester do?
    Mrs. Del Balzo. We do a number of things as most colleges 
do, I think. Our prior learning assessment encompasses a lot of 
different areas. One of them is obviously through credits 
earned possibly at another college. We assess those if they are 
pertinent to their degree at the College of Westchester through 
standardized exams such as CLEP, UExcel, ECE, international 
baccalaureate exams, sometimes early college high school 
credits, and VOC E articulations.
    Those are students who study career-specific coursework in 
their high schools, for holding technology certifications such 
as A+, CCNA, Adobe, Microsoft office specialists that would 
correspond to courses that we offer at the college. Also--
    Mr. Walberg. If I could just jump in there--
    Mrs. Del Balzo. Sure.
    Mr. Walberg.--With that list, extensive list, how do you 
communicate that to students, potential students, how do you 
communicate that this is a school that will take into 
consideration life experience, past courses, you name it?
    Mrs. Del Balzo. It starts in the admissions counseling 
prior to a student making a decision about whether they should 
attend, especially an adult because their time is so limited. I 
was an adult student as well, and I understand that. We explain 
all of those things.
    We have materials that we can review with them in the 
personal interview that we do with each student, and make it 
super clear. And then we also guide them through the process of 
taking those standardized exams or reviewing their life 
experience credits or their military experience through our 
listing.
    Mr. Walberg. I understand as well that you give no-cost 
remedial courses for students who come to the College of 
Westchester. How many new students participate in some of these 
courses, and how does it affect their financial aid?
    Mrs. Del Balzo. Yes. It affects their financial aid 
significantly because--well, this past summer we identified 122 
students in the incoming freshman class, and 117 of them didn't 
have to take the basics of math course. They were able to test 
into the higher level. If they had taken the basics, they would 
have had to pay out-of-pocket for that because it is not 
covered through their financial aid.
    We do that with adult students as well. I don't have the 
statistics on it, but we offer, to them, to adult students at 
times that are convenient for them to take what is called 
``Boot Camp'' for adults.
    Mr. Walberg. Thank you.
    Reverend Holtschneider, can you tell me about the remedial 
courses that DePaul offers to new students prior to the start 
of their academic career?
    Rev Holtschneider. We took our lead from the research done 
by Cliff Adelman here at the Department of Education and 
realized that if we could keep students tracked with their 
freshman classmates they had a better chance of succeeding 
going through.
    So we basically took all of the remedial classes, put them 
the summer before, and made them free if they took them the 
summer before. That is actually financially a wise move as well 
because they will stay with you longer as students and you will 
make it up later, frankly, as a business model.
    But frankly, it creates a higher graduation rate as a 
humane model and helps students stay on track. So we try to 
push them into the summer where we put the courses for free, 
but if they wait until the fall we charge them. And that is the 
incentive so that they get on track and then they stay on track 
going forward. It is working beautifully. Their graduation 
rates are much higher than they used to be.
    Mr. Walberg. I suppose it also shows their drive of wanting 
to compete on a college campus like yours.
    Thank you so much. I know my time is about up.
    Thank you, Madam Chairman.
    Chairwoman Foxx.. Thank you very much.
    Mr. Bishop, you are recognized for five minutes.
    Mr. Bishop. Thank you very much, Madam Chair, and thank you 
for holding this hearing.
    To the panel, thank you for the work that you are engaged 
in. It is very impressive.
    Mr. Garrido, your story is an inspiration. I thank you very 
much for being here with us today.
    I guess my first question is an idea that is gaining a fair 
amount of currency around here is the idea of simplifying the 
student financial aid program such that we would have one grant 
and one loan program.
    The grant presumably would be the Pell grant, the loan 
presumably would be the direct loan program and by implication 
that would eliminate the campus-based programs that are 
operated under Title IV for a great many years.
    My question is what impact, if any, would a simplification 
of the student financial aid program such that we were down to 
one grant and one loan have on your ability to both attract and 
retain low-income students?
    Dr. Anderson, may I start with you?
    Mr. Anderson. Yes. First of all, it would streamline the 
process. So at the university level we would be able to respond 
faster. We would probably have more applicants to the 
institution and for financial aid.
    I am going to say that sometimes financial aid application 
fatigue occurs among certain parents and student groups simply 
because it is such a complicated process to them. I constantly 
am responding to letters and phone calls about people who have 
difficulty with that process.
    So streamlining the process, increasing the number of 
applicants, and encouraging in an incentive-based way parents 
and students to understand it is easier to get into the 
educational pipeline than they had thought all would be very 
critical.
    Mr. Bishop. At the risk of being argumentative, there is 
not now a separate application for SEOG. There is not now a 
separate application for college work-study or for Perkins. The 
student files the FAFSA, and that is it.
    I thank you for your assessment.
    Father Holtschneider, could you comment on this?
    Rev Holtschneider. The same question?
    Mr. Bishop. What impact would this have on your students?
    Rev Holtschneider. Well, the simplification of course is 
always attractive in its own right. Many of my students rely on 
Work Study greatly. A number of my students rely on SEOG. A 
number of my students rely on Perkins.
    I didn't come prepared today to give you an exact analysis 
about it--
    Mr. Bishop. I am not asking for one.
    Rev Holtschneider.--but I can tell you I certainly have a 
number of students that have relied and that has been a reason 
for their success along the way. These have been programs that 
have been very helpful.
    Mr. Bishop. Thank you. If I could just stay with DePaul for 
a second, what is your institutional discount rate?
    Rev Holtschneider. The institution discount rate would be 
somewhere--it depends of course if you are--what you put in 
that, so different schools report that differently, but we 
would be in the mid-20s, somewhere along there.
    Mr. Bishop. And I hear you correctly that all of your 
institutional aid is granted on the basis of demonstrated need? 
That you don't engage in merit-based student financial aid? Is 
that correct?
    Rev Holtschneider. That is correct although we do have 
talent aid for our school of music for students studying opera, 
et cetera and our school theater. There would be talent aid in 
those cases, but generally, for the institution, we put our aid 
towards need.
    Mr. Bishop. Just one more question.
    Mrs. Del Balzo, you made a comment about gainful 
employment, and we all understand how very contentious and 
controversial gainful employment is.
    I guess my question is the federal government spends about 
$145 billion a year on student financial aid programs. And what 
gainful employment is, imperfect to be sure, is an effort on 
the part of the federal government to make some assessment of 
whether that money is being properly allocated and whether 
there is a return on investment, if you will.
    So I guess my question to you is if gainful employment 
isn't it, and by the way, perfectly reasonable position if 
gainful employment isn't it, what metrics would be best used to 
determine whether the federal government is in fact getting a 
return on its investments?
    Mrs. Del Balzo. Yes, thank you, Mr. Bishop.
    There is a metric already in place--the student default 
measurement that has been in place for many years--and we found 
this one to be a good measurement of student success.
    We also internally measure our student job placement in the 
field, so that is the other metric that we use, but from a 
federal perspective, I think the default rate measurement is a 
sound one.
    Mr. Bishop. Thank you very much.
    Mrs. Del Balzo. Thank you.
    Chairwoman Foxx.. Thank you, Mr. Bishop.
    Ms. Bonamici, I recognize you for five minutes.
    Ms. Bonamici. Thank you very much, Madam Chairwoman.
    Thank you to our panel. I want to join Congresswoman Brooks 
and the statement about the importance of retention as well as 
getting students into the school.
    Later this week or soon I plan to introduce the Pay It 
Forward College Affordability Act. This is a new college 
financing model. It sets up a framework to cover students' 
college tuition and mandatory fees upfront and then students, 
once they graduate, will pay back to the fund a percentage of 
their income for a set period of time.
    So current students will draw from the program fund while 
they are in school and then of course contribute into or pay 
forward once they graduate. My home state of Oregon is studying 
this model. We will be hearing from the stakeholders as they 
examine the proposal to address the rising costs of higher 
education.
    So I want to ask Dr. Anderson and Father Holtschneider, do 
you see potential in this sort of a departure from the 
traditional way of thinking? And also, can these ideas be 
explored without some state and federal funding to get them 
going?
    Dr. Anderson? And I do want to save time for another 
question.
    Mr. Anderson. Absolutely, and I would support it. However, 
I would say we would have to make sure that we have very select 
and stringent criteria. For example, we want to make sure that 
time-to-degree--that students and parents understand that if 
you are getting the support upfront--that we expect that time-
to-degree will be cut off at a certain point.
    We also expect that progression standards be applied, that 
students have to meet the progression standards implemented by 
the institution to move from semester to semester and that 
these be held to higher expectations.
    Again, that is an incentive-based model. It is an 
entrepreneurial model. And I think it has validity especially 
at a time in North Carolina where we have declining state 
support and we expect to see it--we have had it for four years, 
we expect to see it for another two years perhaps. So it would 
be critical to have another option like that.
    Ms. Bonamici. Thank you.
    Father Holtschneider?
    Rev Holtschneider. I would welcome it as a model to be 
tested because I watch--as I am sure you have seen--students 
choose career paths based on whether they can pay back the 
loans that they have taken on, and so I have watched students 
choose not to go into teaching. I have watched them choose more 
highly remunerated law careers than perhaps public service law 
careers.
    You watch those choices being made all the time and if they 
could do something that created a way to pay back that with 
respect to that, it might have a nice effect.
    Ms. Bonamici. Thank you. I appreciate that. That is one of 
the benefits. Thank you very much.
    Recently, the administration identified four key areas to 
address if we are really to increase college opportunities for 
low-income students. And one of those key areas is to reduce 
inequalities in college advising and test preparation, which is 
a welcome change.
    I want to mention a couple of models. Oregon Institute of 
Technology, Oregon Tech, is partnering with local high schools 
to provide mentoring and advising and they actually are using a 
personalized text messaging system to encourage students 
especially to get them involved in STEM. They got a little 
shout-out at the White House recently for that program.
    And also the Oregon Student Access Commission runs a 
program called ASPIRE, which is Access to Student Assistance 
Programs in Reach of Everyone. So they go into school sites, 
they have about 145 sites now and about 1,500 trained 
volunteers.
    It is available to all students and it is a mentoring 
program that works one-on-one with the students to provide them 
with college and career options, admission and financial aid 
information.
    That is a great program but sustainability and scaling up 
is really important, so can you discuss the importance of this 
type of mentoring and the potential there to provide students 
with--and if you have any other ideas-to provide them with that 
one-on-one counseling that they need, especially as K-12 
budgets have been cut and high school counselors are really 
overworked.
    I would like to hear maybe from Mrs. Del Balzo and Mr. 
Garrido first and then the others if there is time.
    Mrs. Del Balzo. Thank you, Ms. Bonamici.
    At the College of Westchester we don't have a formal 
program besides the Success Coaching in place and that is 
really because each student does have an academic advisor. That 
is their first point, and from there they are referred out to 
appropriate places whether it is financial aid counseling, 
mental health counseling.
    In addition to that, the success coaching program that is 
in their first semester is there to really help students get 
through those gateway courses that we have all been mentioning 
this morning that are the most critical.
    Ms. Bonamici. And can you address--we need to get to the 
students while they are in high school to make sure that they 
are getting information they need to apply.
    Mrs. Del Balzo. We have--I am sorry--
    Ms. Bonamici. I just want to hear from Mr. Garrido.
    Do you have ideas about how to reach students while they 
are in high school to get them all of the information they 
need?
    Mr. Garrido. Peer mentoring could be very, very beneficial. 
My counselor actually connected me to a student who was already 
in a program that I wanted to be in, so that was very 
beneficial.
    Ms. Bonamici. I see my time has expired. I would like to 
hear from the others perhaps in writing after.
    Thank you.
    I yield back. Thank you, Madam Chairwoman.
    Chairwoman Foxx.. I would now like to recognize Ms. Wilson 
for five minutes.
    Ms. Wilson. Thank you, Madam Chair, for this opportunity.
    I founded a program in Miami-Dade County, the fourth 
largest school district in the nation, 20 years ago, and the 
purpose of the project was to make sure that African-American 
boys got the opportunity to go to college because too many of 
them grow up believing that they do not deserve the rewards of 
life.
    For others, they feel beaten down by low expectations and 
an onslaught of degrading stereotypes. They learn to see 
themselves as society sees them, not as real men, but as 
caricatures of men whose only chance for success lies in 
violence and crime.
    Many of us will say, ``Well, that is the responsibility of 
the parents.'' I agree that parents should be responsible for 
their children, but what happens to the children who have no 
parents or who have not even a grandpa or an uncle to show them 
the way?
    So the 5,000 Role Models of Excellence Project is a group 
of men from the community, thousands of them, who are trained 
in how to raise and train young boys how to become men.
    Our main goal is to send them to college, so they are on a 
college track from elementary school through middle school 
through high school. It is a huge bonding where all of them 
wear the same uniform. People know who they are.
    We have a strong partnership with our community college. 
They are trained. They visit the college campuses. They are in 
school every summer leading up to college, so they understand 
what college is all about.
    They receive scholarships from our HBCUs, Florida Memorial, 
Bathune-Cookman. We train them and teach them how to apply for 
the Bill Gates Scholarships, STEM scholarships, so all of them 
are ready.
    We work with our state attorney, our public defender, every 
hospital, every police department, colleges and universities, 
our jails, our prisons, our school counselors, our judges. We 
even work with inmates to help them and parole officers and 
parole boards.
    We work with all of our philanthropists and the business 
community, and our community believes when you lift up these 
boys you lift everyone up. As so we engage them in all kinds of 
activities. They have been to Washington, D.C. They go to 
Tallahassee every year, which is our state capital. We expose 
them to museums and to art and to ballet. We take them 
everywhere.
    Remember, there are 8,000 of them. They start in elementary 
school and they are in the program as a result of either a 
parent or a principal or a counselor recommends them for the 
program. We have a waiting list of course. We have different 
counties who want this program. We have another one in Pinellas 
County.
    These children are trained through a specific curriculum. 
We teach them how to solve a conflict without resorting to 
violence. We teach them etiquette and leadership training.
    We teach them how to react to the police. There is a common 
thread that there is this tension between African-American boys 
and the police. We teach them how they are to respond if 
stopped by the police. The police officers are all involved in 
it.
    I want you to see the list. This is a copy of the last 
class that received their scholarships on Martin Luther King's 
birthday. They will be going to college. This is not all of 
them. These are the ones that our foundation will be sending.
    Many of them will be going by way of the Bill Gates 
Scholarships, STEM Scholarships, Florida A&M, Bathune-Cookman, 
and of course our community colleges are waiting for them.
    Everyone is begging. How do we get more African-American 
boys, men into teaching? How do we get them into the 
classrooms? How do we get them so that they can help these 
little boys who are going astray stay on the right track?
    I believe my time is up, and I don't want to--
    Chairwoman Foxx.. Thank you, Ms. Wilson, for talking about 
that extraordinary program. We appreciate it.
    I am now going to use my time to ask some questions of the 
panel members.
    Mrs. Del Balzo, tell us a little bit about how the College 
of Westchester uses its partnerships with local businesses to 
improve course and program offerings for your students.
    Mrs. Del Balzo. Thank you, Dr. Foxx.
    We do that in a number of ways. We have been around for 
such a long time in the local community that we have many, many 
partnerships with companies. They hire our graduates upon 
graduation.
    We have a very robust internship program with a number of 
our course work and programs at the college. They mentor our 
students. They come in and they review classwork in particular 
courses that are appropriate, so those are the major ways.
    Chairwoman Foxx.. Thank you.
    Father Holtschneider, can you talk a little bit about the 
career counseling services that DePaul offers to its students? 
How do you coordinate with local businesses to address their 
workforce needs?
    Rev Holtschneider. Well, a couple of ways. Number one, we 
are surrounded by Chicago. We are in the middle of Chicago. We 
also, as you just heard a moment ago, have been there well over 
100 years.
    We partner very closely. We also turn to our alumni in all 
of those businesses to give students a shot in internships.
    You heard a few moments ago that we are top 10 in the 
nation now for internships. At any given moment, we have 4,000 
students in an internship, and we use Chicago to do that.
    And that is a powerful way to get them employed. You don't 
want them to wait until after they graduate to start building 
the Rolodex or to be looking out there when people, they could 
already be building those early. That is first and foremost.
    Secondly, we have all of the traditional counselors to help 
people and assist them as they pull together resumes, practice 
their skills in interviewing, all of the things that no one has 
actually taught them and that they can learn in those things. 
So there is a great deal of mentoring that goes on with the 
various groups and the university at large.
    That is also somewhat college-specific. We create offices 
that are very specialized for some of the colleges to help them 
in their search as well.
    Chairwoman Foxx.. Thank you very much.
    I want to do a quick follow up. What was the impetus for 
DePaul supplementing the TRIO programs with initiatives of your 
own? What brought you--
    Rev Holtschneider. The name St. Vincent de Paul over our 
door. Our brand is poverty. That is what he gave his life to, 
and as an institution we wouldn't be honoring that name, 
frankly, if we weren't caring about students who need these 
opportunities. Frankly, being true to the name over the door.
    But also, frankly, the need of the students who present 
themselves to us. We have far more students that can be 
accommodated with the allotment we have through the TRIO 
programs and so we try to put our own money towards them.
    Sometimes it is because the TRIO programs are somewhat 
narrowly construed and we want to be a little bit broader. So, 
with regard to McNair, McNair is designed so that we can get 
students of color, under-represented students into the 
classroom as professors, to move them all the way to their 
Ph.D.
    But it doesn't enable students from those backgrounds to go 
into medicine or into law, so we created wraparound programs 
that would work beyond the structures of McNair so that we can 
serve a broader number of students.
    Chairwoman Foxx.. Dr. Anderson, I was very appreciative of 
your emphasis on the need for measurable outcomes in these 
programs. I have known about Fayetteville State's Upward Bound 
Special Services Programs since I was an Upward Bound Special 
Services director at Appalachian State.
    Would you talk a little bit about the extensive data 
analysis initiative that you have and how you use that data to 
increase student achievement?
    Mr. Anderson. Sure. I am an assessment, evidence-based 
driven person, and one of the things that I instituted when I 
came to the institution was that anyone who submits a request 
for funding at the institution must have an accompanying 
assessment plan, or we won't even read your application.
    So it is pretty understood that if you create the mindset 
at the institution that assessment is important, that 
measurable outcomes and especially learning outcomes if you are 
talking about learning, are what is critical, people will 
understand that and in and of itself it becomes an incentive-
driven model.
    So we have tried to make that university-wide. So in the 
case of support programs, one of the things I like to really 
mention is that it behooves the leadership at HBCUs to identify 
external revenue streams to fund these support programs to 
underrepresented groups when they don't have state-or grant-
related funding, and both are declining.
    So we have to go out and find more support for these 
programs, but to get that support, we must say to the programs 
and to the program directors, ``You must demonstrate to us that 
you really understand how to measure impact and that you must 
show an assessment plan.''
    Chairwoman Foxx.. Thank you very much. Again, I hope your 
message gets through to a lot of other programs.
    Mr. Miller?
    Mr. Miller. Mrs. Davis?
    Chairwoman Foxx.. Mrs. Davis?
    Mrs. Davis, you are recognized for five minutes. I am 
sorry. I got a different message.
    Mrs. Davis. Mr. Miller has graciously--
    Mr. Miller. [Off mike.]
    Mrs. Davis. Thank you. Thank you, Mr. Miller.
    Thank you, Madam Chair.
    Mr. Garrido, I want to thank you for being here and for the 
role that you play really in showing everybody what the 
possibilities are. That is very important.
    One of the things that we know though is in California 
where we have the Dream Act as well as Texas is that many 
students either don't learn about it or even if they do they 
don't apply and therefore we have scholarships really going 
wanting or opportunities going wanting I think for students.
    How do you react to that? Did you have a lot of outreach? 
You obviously were a self-starter and you were able to reach 
out and get some of that information, but what do you see is 
the issue and the problem with trying to really connect young 
people who are eligible with the program?
    Mr. Garrido. Unfortunately, we dreamers usually have to 
live in fear, and it is that fear, that fear is the barrier 
that stops many dreamers from actually reaching out to 
counselors and opening up to counselors.
    I think one of the reasons why I was able to go to college 
and find out about the Texas Dream Act was because I was very 
open with my counselor. She already knew my situation, but she 
was very quiet. She was waiting for me to approach her and 
explain my circumstances back then.
    So I think dissipating myths will be something very 
important to do, something that we really need to focus on if 
we want more dreamers to become success stories.
    Mrs. Davis. Are you suggesting that perhaps the education 
for counselors, for teachers, for individuals significant to 
the students somehow suggest to them to be careful about 
identifying students--they obviously need to be able to play a 
role here.
    Tell us a little bit more about what you think--as a 
student, perhaps--you were comfortable being approached, but a 
lot of students are not and some of those lines that people 
worry about crossing.
    Mr. Garrido. Perhaps providing additional training for 
school counselors on how to deal with these kinds of 
circumstances and these situations.
    In my honest opinion, lowering down the anger, rhetoric, 
and hateful comments at the national level will help a great 
deal. It will help us feel a little bit more comfortable 
approaching other people about our circumstances because it is 
something--we didn't choose to violate laws. We got caught up 
in the situation.
    Mrs. Davis. Do you think a new immigration reform bill that 
addressed some of these concerns would be helpful? Would that 
make a difference in terms of students, and how do you think 
that would make a difference?
    Mr. Garrido. Of course. That is the ultimate goal. That is 
the ultimate dream of everybody. Comprehensive immigration 
reform will definitely solve all of these issues and will kick 
start, in my opinion, the economy.
    As the congressional budget office reported back in 2010, 
if comprehensive immigration reform is passed, especially in 
the section for dreamers, we can contribute significantly to 
the U.S. economy.
    Mrs. Davis. Yes. Thank you very much.
    One of the programs that we are aware of certainly in the 
San Diego area and I think in California is GEAR UP and the 
opportunity for students to be connected early in the middle 
school years. We have seen a pretty dramatic gain in terms of 
Latino graduation particularly from 31 percent to 58 percent.
    I don't know if you all want to comment. I think one of the 
things we are aware of is that programs work when people in 
that community are committed to that program. There may be all 
kinds of gradations of how they do it, but the commitment is 
what is critical.
    There was a program actually I think it was on 60 Minutes 
this weekend, about students working within companies early--
well, the preparation for that was strong and then they could 
move in and they could see the relevance.
    Are there other programs? Is GEAR UP one? Are there other 
programs where you think trying to help young people see that 
relevance of the work that they are doing and really how 
tremendously capable they are even if they have gotten a 
different message?
    Father?
    Rev Holtschneider. The great insight of course with the 
TRIO programs that grew from their initial three to now eight 
was that money wasn't enough, that money was key for many 
students, that the Pell was absolutely key, but it wasn't 
enough and that there had to be interventions along the way.
    That is why it became an across-the-aisle set of agreements 
over the years when it first started to think about what are 
the interventions that are key in these young people's lives.
    There are certainly far more students that take advantage 
of it. Certainly there are best practices along the way. There 
are programs that you can always point to that are perhaps not 
living their potential.
    I think that the initial inspiration is still valid, that 
throwing money at the problem is not enough for many of these 
young people because they are first-generation, because they 
don't have the resources around them to succeed, that there 
needs to be some targeted interventions at moments that make 
all the difference.
    Mrs. Davis. Thank you. My time is up.
    Thank you, Madam Chair.
    Chairwoman Foxx.. Thank you.
    I recognize the chairman of the committee, Mr. Kline, for 
five minutes.
    Mr. Kline. Thank you, Madam Chair.
    I want to thank the witnesses for being here, for your 
testimony. I apologize. You have noticed, we come and go here, 
and I am sure that sometimes that is upsetting as we have other 
hearings or perhaps we are on the floor making impassioned 
speeches and so forth. Thank you for being here, for your 
testimony.
    Father Holtschneider, I want to talk a little bit more 
about TRIO if I could. You have made suggestion that the TRIO 
regulations be simplified as I understand it. How would that 
improve the student support services on campus if we were to do 
that?
    Rev Holtschneider. I have talked about it very specifically 
in terms of eligibility, to begin. Right now I have staff that 
are just dedicated to determining the eligibility first on 
family and individual tax status for that program.
    It is in my opinion a duplication of work that could easily 
already be covered by the work that was done, whether they were 
Pell-eligible in the first place.
    So why couldn't we be taking the funds that are just being 
used to determine eligibility at each university across the 
nation for each student individually and put that to better use 
either in the support services that are provided to themselves 
rather than I think needless administration?
    Mr. Kline. We are very much in favor, at least some of us, 
of simplification of rules and regulations and trying to get 
actual outcomes and not just be caught up in paperwork. We have 
addressed that issue a number of times in different pieces of 
legislation here, so I am interested in trying to make that 
work better.
    The TRIO program is one of those that has had pretty good 
bipartisan support. It reaches a student body that needs the 
help, and it has been pretty well-recognized, but as in 
anything it can get sort of complicated.
    What are the specific services that your TRIO staff is 
connecting students with? What does that mean to you? What are 
these services?
    Rev Holtschneider. The challenge of course is there are 
eight TRIO programs, one of which is just a training program, 
so it is really seven, and they would have individual answers 
to your question.
    The ones that are true at my university are the Student 
Support Services program and then McNair.
    McNair, I spoke about a moment ago, is for training people 
to go into and become professors and Ph.D.-level qualified. 
Student Support Services is much larger.
    That is everything from getting people mentoring because 
they really need someone around them to show them how this all 
works and to encourage them along some of the initial 
challenges.
    These are programs for selective tutoring when a student is 
finding something that is a challenge. These are programs that 
introduce people to college itself and how it works and how you 
succeed and build those kind of short-term training pieces into 
it.
    There are a number of pieces to help people who might be 
defeated by the complexity of the college system or some of the 
challenges for which they weren't prepared in their schooling 
to actually succeed when they suddenly have to rise to this 
level. It is a large panoply of different programs.
    Mr. Kline. You can see the excitement when you go and you 
visit a campus--I haven't visited yours, but in my district 
when you talk with people who work in the TRIO program and you 
talk to students. We would like to see it succeed. We are going 
to continue to pursue this idea of making it simpler.
    Madam Chair, I yield back. Thank you.
    Chairwoman Foxx.. Thank you very much.
    I now recognize the ranking member of the committee, Mr. 
Miller.
    Mr. Miller. Thank you very much, Madam Chairman. Thank you 
for holding this hearing, and for the witnesses, for your time 
and your expertise.
    Reverend Holtschneider, let me thank you very much. Every 
time I meet with people from DePaul it sort of lightens the day 
up, your commitment to students from low-income families is 
just remarkable and how you have managed to patch together this 
system so that they can complete their education and the 
support that you provide them. I deeply appreciate it.
    Rev Holtschneider. Thank you.
    Mr. Miller. I want to ask a question, and it may not apply 
to the private university but if you have thoughts on it--I 
want to begin first of all with Alex Garrido.
    Alex, you started at the University of Texas and finished 
at the University of Texas, or did you transfer?
    Mr. Garrido. No. I started and finished.
    Mr. Miller. You started and finished there, but let me ask 
you, one of my concerns has been through this process as we 
keep thinking about the cost of education and how we move 
students through this in the proper sense of time is this 
question of articulation agreements with in-state systems.
    I don't know if it flows over to the private university or 
not, but Fayette is part of the public system, correct?
    Mr. Anderson. Yes.
    Mr. Miller. And so this question, and maybe, Mr. Garrido, 
you know your friends that take classes in community college 
and then find out those classes aren't transferable, they have 
got to repeat the classes, they have got to borrow more money 
to repeat the classes--I just wondered if you might talk about 
that experience a little bit, but this really applies more--it 
is easier to do within the state system from community college, 
state college, the university system to do this.
    A lot of states don't do this. Some states have done it 
very well, but it is a real drag on the efficiency--on the 
efficiency of the use of money that families and students are 
borrowing to go to college.
    Mr. Garrido. In my region, the South Texas College, which 
is the community college where I got some credits from, they 
actually go to the high school and they teach the classes in 
the high school in high school classrooms.
    That credit is--they understand then you are not going to 
South Texas College, so they know in advance that those classes 
are going to be transferred to the University of Texas-Pan 
American, which is the only big University in that particular 
region.
    I guess that partnership really helps, but I definitely see 
an issue if that partnership is broken or it is not that solid. 
Of course that will be a huge issue with transferring credit 
hours and all that.
    Mr. Miller. Dr. Anderson?
    Mr. Anderson. Yes. North Carolina has a significant number 
of articulation agreements. The UNC system with the community 
college system, and for us it has been an absolute blessing. It 
has helped increase our enrollment obviously, but of the two 
highest categories of graduating students are early college 
high students and students who have transferred from community 
colleges with associate degrees. Those who transfer without 
associates don't get--
    Mr. Miller. They have completed their units for an A.A. 
degree.
    Mr. Anderson. Yes, so they must have associate degrees. But 
what has happened as a result of the articulation agreement is 
faculty from both groups, from community colleges and from our 
institution, talk about what is being taught at the community 
college so that the students will then be prepared when they 
come to us.
    We have recently gotten funding from a community foundation 
to support scholarships for students who are in the 
articulation agreement to come so that their education will be 
relatively debt-free when they get to us.
    So it has allowed us as an institution to think very 
broadly about the transfer of population, their success rate, 
their high persistence, et cetera, and if you really want to 
look for a true example of a return on investment, look at 
North Carolina's articulation agreements.
    Mr. Miller. Thank you.
    Reverend Holtschneider?
    Rev Holtschneider. This actually is possible for the 
privates, as well. Our transfer population is the same size as 
our freshman class each year. That is not by accident, we have 
well north of 100 of those agreements with different community 
colleges.
    We have also learned that we can create partnerships with 
community colleges that if they agree to abide by our standards 
for their courses we will accept them the same day, so the 
students are double enrolled in both institutions and we give 
them advisors so that they can be advised on what courses will 
transfer from the very, very beginning.
    This is also getting easier with technology. Illinois has a 
spectacular website that they put together several years ago 
where a student can simply type in what they have taken at the 
local community college, where they want to transfer, what 
degree they want, and instantly the computer will tell you what 
you have left to take. And private universities like ours and 
others can be part of that if we choose.
    It is a wonderful tool that is making this much easier for 
students.
    Mr. Miller. Thank you.
    Thank you also for mentioning the McNair program. I have 
had the opportunity to visit with residents in my district who 
come from the most difficult, dangerous neighborhoods in the 
state who graduated and brought their Ph.Ds back to work in our 
veterans hospitals, to work in our high schools. It is really a 
very exciting program for the young people.
    Thank you.
    Thank you, Madam Chair.
    Chairwoman Foxx.. Thank you very much, Mr. Miller.
    Mr. Messer, you are recognized for five minutes.
    Mr. Messer. Thank you, Madam Chair. I appreciate the 
opportunity to be here.
    Thank you for your testimony on this very important topic. 
Our nation's Declaration of Independence declared that we are 
all endowed by our Creator with, among inalienable rights, the 
right to pursue our happiness.
    In modern life, a quality education is the key to having 
the opportunity to do that. I think it is important to point 
out in a hearing such as this that our modern federal financial 
aid system is one of the great success stories of the modern 
federal government, that it was a system based on providing 
access to students and providing access to higher education in 
a way that wasn't available before, and by that measure, it has 
been wildly successful.
    Of course, in modern life, or in today's world even 
different than the world just a few decades ago, you need more 
than just a little bit of college to do better economically. It 
used to be several decades ago if you went to college even for 
half a year or a year you were actuarially better off. In 
today's world, unless you graduate with a degree and a 
marketable skill that works in a modern economy, you are not 
better off.
    Of course, that is even more complicated by the fact--with 
the rising cost of school, students may leave school without a 
degree and with tens of thousands of dollars of debt and 
therefore be even worse off.
    So while these programs are important and we all want to 
share the goal of living in an America where anyone who wants 
to pursue an education, a quality education, has that 
opportunity, the results matter, too.
    And I would like to start with Dr. Anderson and invite 
others on the panel to share with me. The question I have is 
this: understanding that it matters that we get kids to 
completion, do you have any thoughts or ideas for holding 
schools more accountable for the federal dollars they receive 
to educate low-income and first-generation students?
    Mr. Anderson. Yes. I would like to see the introduction 
perhaps of some new metrics that could be used both in the 
selection criteria and in terms of whether or not students--
schools would be eligible.
    For example, if we look at the cost per degree--we have 
been able to reduce the cost per degree. In the North Carolina 
system--it is about $69,000--our peers it is $62,000--for us it 
is about $59,000.
    So showing that you can implement an efficiency such as 
that, the number of FTEs per 100 students, which is an 
efficiency metric. How are students doing relative to that?
    If we select a few criteria that I think are good examples 
of moving students through the pipeline, that your programs are 
working, et cetera and we add those, I think we would be much 
better off in terms.
    Mr. Messer. Yes, I appreciate that. I probably ought to add 
I am a product of Perkins loans and Pell loans and student 
loans--I mean Perkins grants, and Pell Grants and student 
loans. I wouldn't have been able to go to college without them, 
so I recognize how important these programs are.
    I think the key is we need to make sure that this money is 
well spent and we are actually providing better opportunities.
    Would anybody else comment on that topic? No?
    The second thing that I would ask, and Mrs. Del Balzo--I 
want to make sure that I pronounce it correctly, pardon me--I 
am intrigued by your success coaching program. Could you 
explain in more detail the role a coach plays, how he or she 
helps flag students who may be struggling, connects those 
students with support services?
    Mrs. Del Balzo. Thank you, Mr. Messer. Yes, it is an 
interesting program. Part of it is ours, and part of it is some 
software and particular coursework that you follow through.
    Students are able to log on to their student account that 
is sensitive just to them, password-protected, and weekly they 
take their own temperature--emotionally, resilience-based 
questions, and their coach has access to those answers. So the 
coach tracks them weekly through their whole first semester and 
they are able to speak with the student to refer them 
appropriately to academic counselors or to a mental health 
counselor or financial aid counselor or for tutoring at the 
learning center, and really helps them get through that first 
semester, which is so critical to student success.
    Mr. Messer. Well, thank you all again. Thanks for your hard 
work. Obviously a critical issue for our country. I think you 
have both addressed one of the most--one of the biggest 
challenges we face, which is in a world of scarce resources we 
have got to find answers that aren't always just more money but 
how can we spend that money better.
    So thank you all very much.
    I yield back.
    Chairwoman Foxx.. Thank you.
    Mr. Tierney, you are recognized for five minutes.
    Mr. Tierney. Thank you, Madam Chairwoman. I yield my time 
to the ranking member, Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Congressman Tierney.
    I think that this has been very informative and I want to 
ask a question. I saw in California in the University of 
California system and I also saw in Arizona State University a 
parental involvement training program--
    Rev Holtschneider. I am sorry?
    Mr. Hinojosa. A parental involvement training program which 
invited--these were by universities now--they invited the 
parents to go drop off the children at school and then come 
over to their campus. And two hours a week they would receive 
training that gave them so much information on how to follow 
their children's education program through elementary school, 
junior high, and get them to take courses that would make them 
college ready.
    It leads to an actual graduation ceremony with cap and gown 
so that the children can see their parents graduating from 
college. It is very innovative. But the reason that I am 
interested in this program if any one of Anderson, Del Balzo, 
or Holtschneider, if you all have these programs or thinking of 
starting them the importance because we see that where ever 
there is parental involvement with their children in elementary 
school and through high school that those are the students that 
are for sure going to enroll in a university and graduate. So I 
am interested in hearing if any of you have such a program.
    I will start with you, Doctor--Father.
    Rev Holtschneider. This is the first I am hearing of that 
exact model and I am going to look at it when we finish today. 
However, what we do have is, as part of our orientation, we 
have combined and separate orientations for students and their 
parents where we bring many of those topics to the fore. And we 
have also learned to create an online community of all of our 
parents that we monitor daily that parents can ask questions, 
parents can be fed ways that they can support their students.
    They can be fed ways that they can ask key questions to 
find out how their children are doing, and that online 
community has served us pretty well the past several years.
    Mr. Hinojosa. Thank you.
    Dr. Anderson?
    Mr. Anderson. Sure. One of the best models of what you just 
described is at South Mountain Community College in Arizona and 
that is a program where young Hispanic females began the 
program, got their mothers involved, and just as you said, the 
mothers in turn graduated. It is one that I hold up as a high-
impact program.
    One of the difficulties for us in terms of doing that--I 
mentioned earlier that we go to great lengths to get parents 
involved in financial aid counseling, but one of the great 
difficulties is that the parents' work schedules often 
prohibits them from participating in such a program. Many have 
two jobs, in other words.
    So for us to do that, to draw them in, it would probably be 
best to do it online and have a very strong parental online 
program, but we don't have the dollars to finance that because, 
as I mentioned earlier, some of the money that could be used 
for distance education that is given to the predominantly black 
institutions, to PBIs, was taken out of the 2008 
reauthorization Act, and HBCUs don't get it.
    If I had that money, I would start the program next week.
    Mr. Hinojosa. You may want to take a look at Arizona State 
University where the program was started 6 years ago by former 
ambassador, Raul Yzaguirre, who at one time was the 
administrator, the CEO of National Council of La Raza.
    When he stepped down from that position he started that 
program, and in the first 6 years they graduated 16,000 
parents. You may want to look at that.
    Mrs. Del Balzo?
    Mrs. Del Balzo. I am taking notes because it is so 
inspirational to hear 16,000 parents in the first year.
    What we do currently, we visit a lot of Parents Nights at 
high schools. We invite parents to come in. We really do want 
parents to be very, very involved with their children's 
decision-making process and make them very aware of what is 
available out in their high schools where we partner.
    As far as parents themselves, we have a lot of parents who 
are graduates and they bring back their kids to come to the 
College of Westchester. We also have parent orientation. We 
always have parents involved with any financial aid counseling, 
especially with the younger students.
    We also encourage younger students to sign a release form 
so they can have their parents get regular information if it is 
necessary, and we are in development with an ESL program right 
now for the local community because many, many of our local 
community are Latino.
    Mr. Hinojosa. Madam Chair, I would like to ask Mr. Garrido, 
and I don't think it will take a more than a minute--can you 
give me another moment?
    Chairwoman Foxx.. Go ahead.
    Mr. Hinojosa. Thank you.
    Mr. Garrido, you spoke about parents not thinking that it 
was important that you go to college. Do you think that a 
parental program like the one that we are discussing now would 
be helpful in our region of South Texas?
    Mr. Garrido. Of course. Of course we need to educate the 
parents about the importance of their offspring attending 
college. It is essential that they understand that it is 
important and to get involved actively getting a degree and 
actively trying to improve their lives. I think then they will 
set an example and it could strengthen the community.
    Mr. Hinojosa. Thank you.
    Thank you, Madam Chair.
    Chairwoman Foxx.. You are welcome.
    I want to thank our distinguished panel of witnesses for 
taking the time to testify before the subcommittee today. I 
think you could tell by the questions there is a great deal of 
interest in the programs that you all are operating and in the 
dedication that you have to serving the students that you 
serve, and so we appreciate it very much.
    Mr. Hinojosa, do you have closing remarks?
    Mr. Hinojosa. Yes, thank you.
    I echo the remarks of the chairwoman. And I would like to 
also thank you, each one of you, as distinguished panelists to 
be witnesses and for joining us today and for sharing your 
expertise on these important issues.
    I especially want to thank Alex because you are one of the 
youngest panelists we have ever had here before our panel, 
before our committee, and we thank you for your courage and for 
sharing your personal story with this education committee.
    As ranking member, I strongly believe that our nation has a 
moral obligation to educate and prepare all students for good 
family-sustaining jobs and careers.
    As Congress considers the reauthorization of Higher Ed, I 
look forward to working with my colleagues on this committee to 
eliminate barriers for low-income, first-generation students, 
and for the nation's dreamers.
    Thank you. I yield back.
    Chairwoman Foxx.. Thank you, Mr. Hinojosa.
    I appreciate very much again the emphasis that has been 
placed here on metrics and measurable outcomes. I think again 
that there have been lots of good intentions with TRIO 
programs, and a lot of other government programs that are out 
there that simply don't meet the good intentions that are set 
out for them because we don't do a sufficient job of designing 
metrics and pointing to what works and what doesn't work. And 
in that way, we shortchange the people we are attempting to 
help.
    I think that is a real tragedy. I think the tragedy is 
going to be worse and worse in the future as funds become more 
and more scarce, so I think that it is up to us, as Mr. Bishop 
said, to make sure that the hard-working taxpayers of this 
country get a good return on their investment.
    Our country has always been a country that wants to give 
people a hand up and that is what I have always thought of the 
TRIO programs as doing. I am a former TRIO director myself. I 
was very committed to the programs when I worked in the 
programs and still committed to them, but I do think we need to 
show results. So I very much appreciate the emphasis that has 
been put on that today.
    Again, another comment that was made, and I can't remember 
who said it, money is not enough. I think we have also always 
seen that. You have to have the commitment from the people 
running these programs to see that there is some success, and 
you have to believe in the students and make sure that they can 
see a vision for where they can go.
    Before I adjourn the hearing, I want to note that in 
addition to excellent institutional initiatives to better 
support low-income or first-generation students, the higher 
education community has also been exploring proposals to 
strengthen federal efforts to help disadvantaged students 
access and complete a postsecondary education.
    At a Senate hearing just last week, Ron Haskins, a senior 
fellow and co-director of the Center on Children and Families 
and Budgeting for National Priorities Project, discussed 
opportunities to strengthen TRIO program evaluations and 
improve program efficiency.
    I am submitting Mr. Haskins' remarks and his recent report 
for the record and hope we can discuss his ideas further as we 
move forward with crafting legislation to reauthorize of the 
Higher Education Act.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    [Additional Submission by Mr. Polis follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Foxx.. There being no further business, this 
subcommittee stands adjourned.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
